USCA4 Appeal: 20-1208

Doc: 25

Filed: 10/13/2020

Pg:1cf1

FILED: October 13,2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 20-1208
(4:19-cv-00056-MSD-LRL)

ANTHONY LONNIE FORBES
Plaintiff - Appellant
v.
SEAWORLD ENTERTAINMENT, INC.; THE BLACKSTONE GROUP, L.P.
Defendants - Appellees

ORDER

The court denies the petition for rehearing and rehearing en banc. No judge
requested a poll under Fed. R. App. P. 35 on the petition for rehearing en banc.
Entered at the direction of the panel: Judge Agee, Judge Wynn, and Judge
Floyd.
For the Court
/s/ Patricia S. Connor. Clerk

c

UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 20-1208

ANTHONY LONNIE FORBES,
Plaintiff - Appellant,
v.
SEAWORLD ENTERTAINMENT, INC.; THE BLACKSTONE GROUP, L.P.,
Defendants - Appellees.

Appeal from die United States District Court for the Eastern District of Virginia, at
Newport News. Mark S. Davis, Chief District Judge. (4:19-cv-00056-MSD-LRL)

Submitted: July 20,2020

Decided: August 18,2020

Before AGEE, WYNN, and FLOYD, Circuit Judges.

Affirmed by unpublished per curiam opinion.

Anthony Lonnie Forbes, Appellant Pro Se. Jimmy F. Robinson, Jr., Scott Andrew Siegner,
OGLETREE DEAKINS NASH SMOAK & STEWART, PC, Richmond, Virginia, for
Appellees.

Unpublished opinions are not binding precedent in this circuit.

PER CURIAM:
Anthony Lonnie Forbes appeals the district court’s order dismissing his complaint
and denying his motions for sanctions. We have reviewed the record and find no reversible
error. Accordingly, we affirm for the reasons stated by the district court. Forbes v.
SeaWorldParks & Entm’t, No. 4:19-cv-00056-MSD-LRL (E.D. Va. Feb. 14, 2020). We
deny Forbes ’ motions for injunctive relief and sanctions. We dispense with oral argument
because the facts and legal contentions are adequately presented in the materials before this
court and argument would not aid the decisional process.
AFFIRMED

2

:MA!.5IUD £3ff
rfiiu'cjir.-j j sin "'it.r-drrwk? isir.o t'pwy* ishi/tb vh

<*vd«r! wmoJ- /««!#«.£

jidi:;';,,, vt <-u bfin im 1 aoo-y. --mo bv*augnt wdaVV 'tuuifjrute *iol cnutmm seid giH'/fioh 1>ju>
. - '.v.
1*7/

m=c.i v.MH^b vdf vd
>1 .0,1 »»V .Cl

lfr>rfuj_ u; ivm ;i,;'/ •ji;rr,g'«?ib v7>
till, /.iv;

-ecio&fc/i iuU tel miffsis'T.v {hmit/iiox/A. .tCRia
.o‘A .V *KV*V\ 3,
iVnulrdbi v /uyuHyj? *»oi w>uoro '^dicl -oiab

idf iBi baMittfwj "daii Tjpabffo’ic .it: ii}<\jttvrj\t.ii£A fms-tt&ft o’boeiH.vad
. v.?oo*iq foiwietvab adi Ijii* ;dn blaov/ btamogm bnr. ttL’oa

CV3d fdATOK

’ Case 4:19-cv-00056-MSD-LRL Document 28 Filed 02/14/20 Page 1 of 13 PagelD# 683

FILED

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF VIRGINIA
Newport News Division

FEB 1 4 2020
CLERK, U.S. DISTRICT COURT
NORFOLK. VA

ANTHONY LONNIE FORBES
Plaintiff,

ACTION NO. 4:19cv56

v.

SEAWORLD ENTERTAINMENT, INC., et al.
Defendants.
DISMISSAL ORDER
This matter is before the Court on the following motions filed by pro se Plaintiff Anthony
Lonnie Forbes (“Plaintiff’), and Defendants SeaWorld Entertainment, Inc. (“SeaWorld”)1 and
the Blackstone Group, L.P. (“Blackstone”) (collectively “Defendants”):

i

(i)

Defendants’ Motion to Dismiss, ECF No. 5;

(ii)

Plaintiffs “Motion for Sanctions Pursuant to Fed. R. Civ.
P. 11 ” (“First Motion for Sanctions”), ECF No. 15;

(iii)

Plaintiff s “Motion for Extension of Time to File a Response to
[Defendants’] Memorandum in Further Support of its Motion
to Dismiss” (“Motion to File Surreply”), ECF No. 19;

(iv)

Defendants’ Motion to Schedule Hearing, ECF No. 20;

(v)

Plaintiffs “Motion for Supplemental Pleadings Pursuant to
Fed. R. Civ. P. 15(d)” (“Motion to File Supplemental
Pleadings”), ECF No. 22;

(vi)

Plaintiffs “Motion for Further Sanctions Pursuant to Fed. R.
Civ. P. 11” (“Second Motion for Sanctions”), ECF No. 23;

(vii)

Plaintiffs “Motion for Extension of Time to File a Motion for
More Sanctions Pursuant to Fed. R. Civ. P. 11” (“Motion for
Extension”), ECF No. 25; and

In their Motion to Dismiss, Defendants explain that SeaWorld does business as “Busch
Gardens Williamsburg.” Mot. Dismiss at 1, ECF No. 5.

’ Case 4:19-cv-00056-MSD-LRL Document 28 Filed 02/14/20 Page 2 of 13 PagelD# 684

(viii) Plaintiffs “Motion for More Sanctions Pursuant to Fed. R. Civ.
P. 11”) (“Third Motion for Sanctions”), ECF No. 26.
The Court concludes that oral argument is unnecessary because the facts and legal
arguments are adequately presented in the parties’ briefs. As a result, Defendants’ Motion to
Additionally, for the reasons set forth below,

Schedule Hearing, ECF No. 20, is DENIED.

Plaintiffs Motion for Extension, ECF No. 25, is DISMISSED as unnecessary; Plaintiffs First
Motion for Sanctions, ECF No. 15, is DENIED; Plaintiffs Second Motion for Sanctions, ECF
No. 23, is DENIED; Plaintiffs Third Motion for Sanctions, ECF No. 26, is DENIED; Plaintiffs
Motion to File Surreply, ECF No. 19, is GRANTED, and the Clerk is DIRECTED to remove
the “subject to defect” notation listed on Plaintiffs Surreply at ECF No. 27; Plaintiffs Motion to
File Supplemental Pleadings, ECF No. 22, is DENIED; and Defendants’ Motion to Dismiss,
ECF No. 5, is GRANTED.
I. Background
On June 5, 2019, Plaintiff, an African American male who was formerly employed as a
facility supervisor at Busch Gardens in Williamsburg, Virginia, initiated this action by filing a
“Complaint for Employment Discrimination” (“Complaint”) against Defendants pursuant to Title
VII Of the Civil Rights Act of 1964 (“Title VII”), 42 U.S.C. § 1981, and the Virginia Human
Rights Act. Compl. at 3, 5,29, ECF No. 1.
Plaintiff previously filed a lawsuit against SeaWorld in this Court in 2016, Action
No. 4:16cvl72 (“Forbes /”), in which Plaintiff asserted claims under Title VII, § 1981, and the
Virginia Human Rights Act, as well as state law claims for assault and battery and intentional
infliction of emotional distress. See Forbes v. SeaWorld Parks & Entm ’t, No. 4:16cvl72, 2017
U.S. Dist. LEXIS 86926, at *3 (E.D. Va. June 2, 2017).

2

Case 4:19-cv-00056-MSD-LRL Document 28 Filed 02/14/20 Page 3 of 13 PagelD# 685

A. Forbes I
In Forbes I, Plaintiff alleged that he was sexually harassed by two assistant managers at
work at Busch Gardens. Id. at *2. Plaintiff alleged that when he “showed no interest” in the
assistant managers, he was yelled at and his hours were cut. Id. Plaintiff alleged that he reported
the inappropriate conduct to a manager, but the manager simply laughed and “allowed [the
assistant manager] to do whatever she wanted.” Id. Plaintiff further alleged that the manager
“made inappropriate racial comments and jokes,” “constantly screamed and yelled at only [bjlack
employees,” and retaliated against Plaintiff by instructing supervisors to “write up” Plaintiff for
various disciplinary issues that Plaintiff considered to be unwarranted. Id. Plaintiff alleged that
he reported his concerns to the Human Resources Department, and was subsequently “transferred
to an unwelcoming environment.” Id. Plaintiff alleged that he was “isolated,” assaulted, and
subjected to racial comments without consequence. Id. at *3.
Plaintiff further alleged that he met with “high ranking officials,” who initiated an
investigation. Id. Following the investigation, Plaintiff alleged that he was notified that the
officials “found evidence that [Plaintiff] was sexually [hjarassed.” Id. Plaintiff alleged that the
Senior Director of Human Resources asked Plaintiff to provide input on potential resolutions. Id.
However, Plaintiff alleged that when he requested copies of the investigation findings, his request
was denied, and he “was later fired after stating he would go to the authorities.” Id.
SeaWorld moved to dismiss Forbes I based on Plaintiffs prior agreement to arbitrate all
employment-related claims. Id. at *3-4. To support its argument, SeaWorld highlighted the
specific language of its Dispute Resolution Program (“DRP”), to which Plaintiff had agreed to be
bound. Id. at *4. The DRP stated:

3

• Case 4:19-cv-00056-MSD-LRL Document 28 Filed 02/14/20 Page 4 of 13 PagelD# 686

SPECIAL NOTICE TO EMPLOYEES
THIS POLICY CONSTITUTES A BINDING AGREEMENT BETWEEN
YOU AND THE COMPANY FOR THE RESOLUTION OF
EMPLOYMENT DISPUTES.
By continuing your employment with SeaWorld Parks & Entertainment,
Inc., and/or any of its subsidiaries, divisions or affiliated companies
(“Company”), you and the Company are agreeing as a condition of your
employment to submit all covered claims to the SeaWorld Parks &
Entertainment Dispute Resolution Program (“DRP”), to waive all rights to a
trial before a jury on such claims, and to accept an arbitrator’s decision as
the final, binding and exclusive determination of all covered claims. This
program does not change the employment-at-will relationship between you
and the Company.
Id. SeaWorld explained that “[cjovered claims” were defined under the DRP, and included:
[Cjlaims relating to or arising out of the employment relationship that:...
B. the Employee may have against the Company and/or any individual
employee who is acting within the scope of his or her employment with the
Company, where the Employee alleges unlawful termination and/or
unlawful or illegal conduct on the part of the Company, including, but not
limited to the following:
(1) Claims relating to involuntary terminations, such as layoffs and
discharges (including constructive discharges) when those terminations are
alleged to be discriminatory or otherwise unlawful under applicable federal
or state law;
(2) Employment discrimination and harassment claims based on, for
example, age, race, sex, religion, national origin, veteran status, citizenship,
disability, or other characteristics protected by applicable laws;
(3) Retaliation claims for legally protected activity and/or for
whistle-blowing under federal or state law; [and]
(7) Tort claims, such as negligence, defamation, invasion of privacy, and
infliction of emotional distress....
Id. at *5-6.
SeaWorld further explained that the DRP contained three procedural levels for dispute
resolution.

At Level 1, the “Employee and the management team attempt to resolve the

Employee’s dispute locally.” Id. at *6. At Level 2, “an independent mediator helps the
4

■ Case 4:19-cv-00056-MSD-LRL Document 28 Filed 02/14/20 Page 5 of 13 PagelD# 687

Employee and the Company open lines of communication in an attempt to facilitate a resolution.”
Id. Level 3 is “Binding Arbitration” whereby “an independent arbitrator provides the Employee
and the Company with a ruling on the merits of the Employee’s covered claim(s).” Id. The DRP
explained that “[t]he arbitrator’s decision is the final, binding and exclusive remedy for the
Employee’s covered claim(s) and is equally final and binding upon the Company.” Id. The DRP
further explained: “This program constitutes a written agreement to arbitrate pursuant to the
Federal Arbitration Act, 9 U.S.C.A. Sections 1-14.” Id. at *7.
On June 2,2017, the Court issued a Memorandum Dismissal Order in Forbes I, in which it
explained:
Congress passed the Federal Arbitration Act (“FAA”) “to reverse the
longstanding judicial hostility to arbitration agreements,” and to reflect a
new “liberal federal policy favoring arbitration agreements.” Adkins v.
Labor Ready, Inc., 303 F.3d 496, 500 (4th Cir. 2002); Murray v. UFCW
Int 7, Local 400, 289 F.3d 297, 301 (4th Cir. 2002); Moses H. Cone Mem 7
Hosp. v. Mercury Constr. Corp., 460 U.S. 1, 24 (1983); Hawthorne v. BJ's
Wholesale Club, No. 3:15cv572, 2016 U.S. Dist. LEXIS 114969, at *9
(E.D. Va. Aug. 26, 2016). Pursuant to the FAA, “[w]hen parties have
entered into a valid and enforceable agreement to arbitrate their disputes
and the dispute at issue falls within the scope of that agreement,... federal
courts [must] stay judicial proceedings, see 9 U.S.C.A. § 3, and compel
arbitration in accordance with the agreement’s terms.” Murray, 289 F.3d
at 301. “[I]f a court determines ‘that all of the issues presented are
arbitrable, then it may dismiss the case.’” Hawthorne, 2016 U.S. Dist.
LEXIS 114969, at *19 (quoting Greenville Hosp. Sys. v. Emp. Welfare Ben.
Plan for Emps. of Hazelhurst Mgmt. Co., 628 F. App’x 842, 845-46 (4th
Cir. 2015)); see also Choice Hotels Int’l, Inc. v. BSR Tropicana Resort, Inc.,
252 F.3d 707,709-10 (4th Cir. 2001). “[A]ny doubts concerning the scope
of arbitral issues should be resolved in favor of arbitration, whether the
problem at hand is the construction of the contract language itself or an
allegation of waiver, delay, or a like defense to arbitrability.” Murray, 289
F.3d at 301 (internal citations omitted).
Id. at *9-10. The Court also noted that, as explained by the United States Court of Appeals for the
Fourth Circuit, “the provisions of the FAA, and its policy favoring the resolution of disputes
through arbitration, apply to employment agreements to arbitrate discrimination claims brought

5

•• Case 4:19-cv-00056-MSD-LRL Document 28 Filed 02/14/20 Page 6 of 13 PagelD# 688

pursuant to federal statutes, including Title VII of the Civil Rights Act.” Id. at *10 (quoting
Murray, 289 F.3d at 301).
In Forbes I, the Court ultimately concluded that “the arbitration provision of the DRP
[was] valid, enforceable, and applie[d] to all of the claims asserted by Plaintiff.” Id. at *17.
Accordingly, the Court granted SeaWorld’s Motion to Dismiss, and dismissed Forbes I in its
entirety. Id. Plaintiff appealed the dismissal of Forbes I to the Fourth Circuit. See Forbes v.
SeaworldParks & Entm 7, 707 F. App’x 168,169 (4th Cir. 2017). Finding “no reversible error,”
the Fourth Circuit affirmed the dismissal of Forbes F1 for the reasons stated by the district court.”
Id.
B. Plaintiffs Instant Action
Plaintiff filed his Complaint in the instant action on June 5, 2019. Compl., ECF No. 1.
Plaintiffs Complaint, like his Complaint in Forbes I, asserts claims under Title VII, § 1981, and
the Virginia Human Rights Act in connection with his past employment with SeaWorld. Id. at 3,
28-33. Plaintiff alleges that he was sexually harassed by an assistant manager and a female
supervisor at work, and after he “show[ed] no interest,” Plaintiff “found that he was in a hostile
work environment.”

Id. at 5.

Plaintiff alleges that he “contacted a manager” about the

harassment, but that the situation was not “appropriately handled.” Id. Plaintiff claims that he
was subjected to retaliation, additional harassment, “[inappropriate racial comments and jokes,”
and unwarranted write-ups. Id. Plaintiff also claims that he was “transferred to an unwelcoming
environment,

99

isolated,” and assaulted. Id. Plaintiff alleges that he met with “high ranking

(t!

officials,” who initiated an investigation. Id. at 7. Following the investigation, Plaintiff alleges
that he was notified that the officials “found evidence that [Plaintiff] was sexually [hjarassed.”
Id. Plaintiff alleges that the Senior Director of Human Resources asked Plaintiff to provide input
on potential resolutions. Id. at 8. However, Plaintiff alleges that when he requested copies of the
6

- Case 4:19-cv-00056-MSD-LRL Document 28 Filed 02/14/20 Page 7 of 13 PagelD# 689

investigation findings, his request was denied. Id. at 8-9. Plaintiff alleges that his employment
was terminated on March 6, 2016? Id. at 9.
Plaintiff alleges five specific employment-related causes of action against Defendants. Id.
at 28-33. In Count I, Plaintiff claims that Defendants discriminated against him “on the basis of
his race, and/or color,” in violation of § 1981, by “denying him the same terms and conditions of
employment available to employees who are White,” and “subjecting him to disparate working
conditions and unfair discipline, denying him terms and conditions of employment equal to that of
employees who are White, and unlawfully terminating his employment.” Id. at 28-29. Plaintiff
also claims that Defendants “foster[ed], condon[ed], accepted], ratified], and/or otherwise
fail[ed] to prevent or remedy a hostile work environment that has included, among other things,
severe and pervasive discrimination and harassment.” Id. at 29. In Count II, Plaintiff claims that
Defendants engaged in “unlawful retaliatory conduct and harassment in violation of [§] 1981.”
Id. at 30. In Count III, Plaintiff claims that Defendants discriminated against and harassed
Plaintiff because of his race and/or color in violation of the Virginia Human Rights Act. Id. at 31.
In Count IV, Plaintiff claims that Defendants’ “unlawful retaliatory conduct and harassment”

2 Plaintiffs Complaint also contains allegations regarding events that allegedly occurred
after Plaintiffs employment was terminated. Compl. at 10-28, ECF No. 1. For example,
Plaintiff alleges, among other things, that he contacted certain management officials of Blackstone
and SeaWorld regarding his complaints of discrimination, and received no responses. Id.
at 10-11. Plaintiff further alleges that counsel for SeaWorld acted inappropriately in his handling
of Forbes I. Id. at 11-14. Additionally, Plaintiff alleges that he filed lawsuits in state court
against an employee of SeaWorld, and an attorney who represented the employee, and believes
that he was threatened during the course of the state court proceedings. Id. at 15-20.
Specifically, Plaintiff states that during the state court proceedings, certain individuals wore royal
blue and green clothing items - colors which Plaintiff believes are connected to the Las Vegas
shooting in October 2017 - and intended for their clothing items to serve as some form of symbolic
threat against Plaintiff. Id. at 17-18. Plaintiff also claims that he received threats from
Lieutenant Governor Justin Fairfax and Senator Kamala Harris. Id. at 20-21. Plaintiffs
Complaint does not include any causes of action related to these additional allegations. The
Complaint only asserts five specific employment-related causes of action against SeaWorld and
Blackstone, as summarized herein. Id. at 28-33.
7

* Case 4:19-cv-00056-MSD-LRL Document 28 Filed 02/14/20 Page 8 of 13 PagelD# 690

violates the Virginia Human Rights Act. Id. at 32. In Count V, Plaintiff claims that Defendants’
“unlawful retaliatory conduct and harassment” also violates Title VII. Id. at 33.
Defendants filed a Motion to Dismiss on August 13, 2019, and provided pro se Plaintiff
with a Roseboro Notice pursuant to Rule 7(K) of the Local Civil Rules of the United States
District Court for the Eastern District of Virginia. Mot. Dismiss at 1-7, ECF No. 5; E.D. Va.
Loc. Civ. R. 7(K). In response, Plaintiff filed a First Motion for Sanctions, in which he claims
that Defendants’ Motion to Dismiss is “deceitful,” and that the arguments asserted therein warrant
sanctions under Rule 11 of the Federal Rule of Civil Procedure. First Mot. Sanctions at 1 -7, ECF
No. 15. Plaintiff subsequently filed an Opposition to Defendants’ Motion to Dismiss, and
Defendants filed a Reply. Opp’n, ECF No. 16; Reply, ECF No. 17.
After the briefing closed on Defendants’ Motion to Dismiss, Plaintiff filed a Motion to File
Surreply and a Surreply. Mot. File Surreply, ECF No. 19; Surreply, ECF No. 27. Defendants
filed a Motion to Schedule Hearing, and Plaintiff filed additional motions, including (i) a Second
Motion for Sanctions; (ii) a Motion for Extension, in which Plaintiff seeks an extension of time to
file a motion for additional sanctions; (iii) a Third Motion for Sanctions; and (iv) a Motion to File
Supplemental Pleadings. Mot. Schedule Hearing, ECF No. 20; Second Mot. Sanctions, ECF
No. 23; Mot. Extension, ECF No. 25; Third Mot. Sanctions, ECF No. 26; Mot. File Suppl.
Pleadings, ECF No. 22. All pending motions are ripe for decision.
II. Plaintiffs Sanction-Related Motions
Plaintiff filed a number of sanction-related motions against Defendants in this action. In
his First Motion for Sanctions, Plaintiff claims that Defendants’ Motion to Dismiss is “deceitful,”
and that the arguments asserted therein warrant sanctions under Federal Rule 11. First Mot.
Sanctions at 1-7, ECF No. 15.

In his Second Motion for Sanctions, Plaintiff claims that

Defendants’ Reply, filed in support of their initial Motion to Dismiss, contains frivolous claims
8

•• Case 4:19-cv-00056-MSD-LRL Document 28 Filed 02/14/20 Page 9 of 13 PagelD# 691

that warrant sanctions. Second Mot. Sanctions at 1-12. Thereafter, Plaintiff filed a Motion for
Extension, in which Plaintiff asks the Court for an extension of time to file a motion for additional
sanctions (presumably Plaintiffs Third Motion for Sanctions), based on the content of
Defendants’ Motion to Schedule Hearing.

Mot. Extension at 1, ECF No. 25.

Plaintiff

subsequently filed a Third Motion for Sanctions, in which Plaintiff claims that Defendants’
Motion to Schedule Hearing contains frivolous claims that warrant sanctions.

Third Mot.

Sanctions at 1-10, ECF No. 26.
The Court finds that there was no need for Plaintiff to seek an extension of time to file his
Third Motion for Sanctions. Accordingly, Plaintiffs Motion for Extension, ECF No. 25, is
DISMISSED as unnecessary. Additionally, the Court finds that although Plaintiff disagrees
with the content of Defendants’ various filings, Plaintiff has not established a sufficient basis for
the imposition of sanctions. Accordingly, Plaintiffs First Motion for Sanctions, ECF No. 15, is
DENIED; Plaintiffs Second Motion for Sanctions, ECF No. 23, is DENIED; and Plaintiffs
Third Motion for Sanctions, ECF No. 26, is DENIED.
III. Plaintiffs Motion to File Surreplv and Motion to File Supplemental Pleadings
After the briefing closed on Defendants’ Motion to Dismiss, Plaintiff filed a Motion to File
Surreply, and subsequently filed a Surreply. Mot. File Surreply, ECF No. 19; Surreply, ECF
No. 27. Because the Court had not authorized the filing of Plaintiffs Surreply, it was filed
“subject to defect.” Pursuant to Local Rule 7(F)(1), after the party opposing a motion files a
response brief, the moving party may file a reply brief with six calendar days. E.D. Va. Loc.
Civ. R. 7(F)(1). “No further briefs or written communications may be filed without first
obtaining leave of Court.”

Id.

In deference to Plaintiffs pro se status, the Court will

authorize the filing of Plaintiffs Surreply. Accordingly, Plaintiffs Motion to File Surreply,
ECF No. 19, is GRANTED, and the Clerk is DIRECTED to remove the “subject to defect”
9

-Case 4:19-cv-00056-MSD-LRL Document 28 Filed 02/14/20 Page 10 of 13 PagelD# 692

notation listed on Plaintiffs Surreply at ECF No. 27. The Court has considered Plaintiffs
Surreply in its analysis of Defendants’ Motion to Dismiss.
On November 20, 2019, Plaintiff filed a Motion to File Supplemental Pleadings.
File Suppl. Pleadings, ECF No. 22.

Mot.

In his motion, Plaintiff claims that the arguments made by

Defendants and their counsel in certain motions filed with the Court are frivolous and “a form of
retaliation.” Id. at 1.

Plaintiff asks the Court for permission to “add [t]hree [n]ew [cjounts of

retaliation” to his Complaint, based on the contents of Defendants’ filings. Id. at 2.
The Court finds that Plaintiffs disagreement with the factual assertions and arguments
made by Defendants in their filings does not justify Plaintiffs request to amend his Complaint.
Because Plaintiff has not established an adequate basis for the relief requested therein, Plaintiff s
Motion to File Supplemental Pleadings, ECF No. 22, is DENIED.
IV. Defendants’ Motion to Dismiss
A. Standard of Review under Federal Rule 12(b')(6')
Defendants seek dismissal of this action pursuant to Rule 12(b)(6) of the Federal Rules of
Civil Procedure. A motion to dismiss under Federal Rule 12(b)(6) should be granted if a
complaint fails to “allege facts to state a claim to relief that is plausible on its face.” Bell All.
Corp. v. Twombly, 550 U.S. 544, 570 (2007). A Rule 12(b)(6) motion “tests the sufficiency of
a complaint and ‘does not resolve contests surrounding the facts, the merits of a claim, or the
applicability of defenses.’” Johnson v. Portfolio Recovery Assocs., LLC, 682 F. Supp. 2d 560,
567 (E.D. Va. 2009) (quoting Republican Party ofN.C. v. Martin, 980 F.2d 943, 952 (4th Cir.
1992)).

As such, the Court must accept all factual allegations contained in Plaintiffs

Complaint as true and draw all reasonable inferences in favor of Plaintiff. Id. “Although the
truth of the facts alleged is assumed, courts are not bound by the ‘legal conclusions drawn from

10

- Case 4:19-cv-00056-MSD-LRL Document 28 Filed 02/14/20 Page 11 of 13 PagelD# 693

the facts’ and ‘need not accept as true unwarranted inferences, unreasonable conclusions, or
arguments.’” Id. (citations omitted).
Additionally, when analyzing the pleadings of a pro se plaintiff, courts are required to
construe such pleadings liberally, especially in a civil rights case. See Brown v. N.C. Dep’t of
Corr., 612 F.3d 720, 722 (4th Cir. 2010); Conyers v. Fa. Hous. Dev, Auth., No. 3:12cv458, 2012
U.S. Dist. LEXIS 134908, at *7-8 (E.D. Va. Sept. 19,2012).
B. Discussion
In their Motion to Dismiss, Defendants argue that “[r]es judicata bars Plaintiffs attempt
to relitigate the claims against [SeaWorld]” that were dismissed in Forbes I.

Mem. Supp. Mot.

Dismiss at 2-3, ECF No. 6. Defendants claim that Plaintiff “cannot escape the preclusive effect
of res judicata by merely changing the formatting and including additional irrelevant factual
allegations.” Id. at 2.

In response, Plaintiff argues that the claims asserted in this action are

“not identical” to those asserted in Forbes /, “arise from different conduct and occurrences,” and
are the “result of ongoing harassment.” Opp’n at 1, ECF No. 16.
Under the doctrine of res judicata, “a prior judgment between the same parties precludes
subsequent litigation of matters resolved in the first adjudication.” Lewin v. Cooke, 95 F. Supp.
2d 513, 522 (E.D. Va. 2000). As this Court has explained:
“The doctrine encompasses two concepts: claim preclusion and issue
preclusion.” These related doctrines “seek to relieve parties of the cost
of multiple lawsuits, prevent inconsistent verdicts, conserve judicial
resources and encourage reliance on adjudications.” Rules of claim
preclusion provide that, if the later litigation arises from the same cause of
action as the first, then the judgment bars litigation of every matter that
was or might have been adjudicated in the earlier suit. Subsequent
litigation will be barred by claim preclusion where there is: (1) a final
judgment on the merits in an earlier suit; (2) an identity of the cause of
action in both the earlier and the later suit; and (3) an identity of the
parties or their privies to the two suits.

11

- Case 4:19-cv-00056-MSD-LRL Document 28 Filed 02/14/20 Page 12 of 13 PagelD# 694

Issue preclusion forecloses “the relitigation of issues of fact or law that are
identical to issues which have been actually determined and necessarily
decided in prior litigation in which the party against whom [issue
preclusion] is asserted had a full and fair opportunity to litigate.” Issue
preclusion will apply where: (l)the issue sought to be precluded is
identical to an issue previously litigated; (2) the issue was actually
determined in the prior proceeding; (3) the determination of the issue was
a critical and necessary part of the decision in the prior proceeding; (4) the
prior judgment is final and valid; and (5) the party against whom estoppel
is asserted has had a full and fair opportunity to litigate the issue in the
previous forum.
Id. (alteration in original) (internal citations omitted).
Here, the Court finds that although Plaintiffs Complaint in this action contains certain
allegations of misconduct that were not asserted in Forbes /, as summarized above, the causes of
action asserted in this action (z.e., for discrimination, harassment, and retaliation under Title VII,
§ 1981, and the Virginia Human Rights Act), were previously asserted in Forbes /, involved the
same parties or their privies, and resulted in a final judgment on the merits.

Additionally, the

Court finds that the issues that necessarily arise in this action (i.e., the applicability and validity
of the agreement to arbitrate employment-related claims), are the same critical issues that were
actually determined in Forbes /, during which time Plaintiff had a full and fair opportunity to
argue his position. As a result, the Court finds that this action is barred by the doctrine of res
judicata.3 Accordingly, Defendants’ Motion to Dismiss, ECF No. 5, is GRANTED.

3 In addition to their res judicata arguments, Defendants also argue in their Motion to
Dismiss that Plaintiffs Complaint fails to state a claim against Blackstone because “Blackstone
never employed [Plaintiff].” Mem. Supp. Mot. Dismiss at 3, ECF No. 6. In his Complaint,
Plaintiff appears to name Blackstone as a Defendant because, at some point, Blackstone “[o]wned
the largest stake in SeaWorld.” Compl. at 10, ECF No. 1. In subsequent submissions, Plaintiff
argues that Blackstone owned SeaWorld, and that the CEO of Blackstone was the supervisor of
Plaintiffs supervisor. First Mot. Sanctions at 3, ECF No. 15; Second Mot. Sanctions at 4, ECF
No. 23. Upon review of the allegations of Plaintiffs Complaint, the Court finds that the claims
asserted in Counts I through V of Plaintiffs Complaint do not state plausible claims for relief
against Blackstone. Compl. at 10-11,20,28-33.
12

- Case 4:19-cv-00056-MSD-LRL Document 28 Filed 02/14/20 Page 13 of 13 PagelD# 695

V.

Conclusion

For the reasons set forth above, Defendants’ Motion to Schedule Hearing, ECF No. 20, is
DENIED; Plaintiffs Motion for Extension, ECF No. 25, is DISMISSED as unnecessary;
Plaintiffs First Motion for Sanctions, ECF No. 15, is DENIED; Plaintiffs Second Motion for
Sanctions, ECF No. 23, is DENIED; Plaintiffs Third Motion for Sanctions, ECF No. 26, is
DENIED; Plaintiffs Motion to File Surreply, ECF No. 19, is GRANTED, and the Clerk is
DIRECTED to remove the “subject to defect” notation listed on Plaintiffs Surreply at ECF
No. 27; Plaintiffs Motion to File Supplemental Pleadings, ECF No. 22, is DENIED; and
Defendants’ Motion to Dismiss, ECF No. 5, is GRANTED,
Plaintiff may appeal this Dismissal Order by forwarding a written notice of appeal to the
Clerk of the United States District Court, Newport News Division, 2400 West Avenue, Newport
News, Virginia 23607. The written notice must be received by the Clerk within thirty days from
the date of the entry of this Dismissal Order. If Plaintiff wishes to proceed in forma pauperis on
appeal, the application to proceed in forma pauperis shall be submitted to the Clerk of the United
States District Court, Newport News Division, 2400 West Avenue, Newport News, Virginia
23607.
The Clerk is DIRECTED to send a copy of this Dismissal Order to Plaintiff and counsel
for Defendants.
IT IS SO ORDERED.
/s/
Mark S. Davis
CHIEF UNITED STATES DISTRICT JUDGE
Norfolk, Virginia
February

(^j"

,2020

13

